Audit of Selected USAID Operating Units'
Monitoring of the Performance of Their
HIV/AIDS Programs
Audit Report Number 9-000-03-004-P
February 3, 2003




                   Washington, D.C.
February 3, 2003


MEMORANDUM
FOR:            GH/OHA, Constance Carrino

FROM:           IG/A/PA, Dianne L. Rawl

SUBJECT:        Audit of Selected USAID Operating Units' Monitoring of
                the Performance of Their HIV/AIDS Programs (Audit
                Report No. 9-000-03-004-P)


This memorandum is our summary report of eight audits performed of
overseas operating units (See Appendix IV for detailed listing of subject
operating units and audit reports) in addition to the results of fieldwork in
the Bureau for Global Health's Office of HIV/AIDS. In finalizing this
report, we considered your comments on our draft report and have
included this response as Appendix II.

This report includes two procedural recommendations. Based on your
written comments and documentation provided on actions taken, we
consider that final action has been taken on both recommendations.

I appreciate the cooperation and courtesy extended to my staff during the
audit.
This page is intentionally left blank




                                        2
Table of   Summary of Results.....................................................................................5
Contents
           Background ..................................................................................................6

           Audit Objectives ..........................................................................................7

           Audit Findings .............................................................................................8

                      Did selected USAID operating units monitor the performance
                      of their HIV/AIDS programs in accordance with Automated
                      Directives System (ADS) guidance? ...............................................8

                          Performance Monitoring Plans Need to be Updated and
                          Improved .....................................................................................8

                          Data Quality Assessments Should be Performed and
                          Documented...............................................................................11

                      Did selected USAID operating units achieve intended results
                      from their HIV/AIDS programs? ...................................................14

                      What is the status of selected USAID operating units' efforts
                      to meet anticipated HIV/AIDS reporting requirements? ...............18

           Management Comments and Our Evaluation ............................................22

           Appendix I – Scope and Methodology ......................................................25

           Appendix II – Management Comments.....................................................29

           Appendix III – Rapid Scale-Up and Intensive Focus Countries................35

           Appendix IV – Reports Issued on Selected Operating Units.....................37

           Appendix V – Summary of Selected USAID Operating Units'
                       HIV/AIDS Performance Monitoring Controls ...................39

           Appendix VI – Summary of Selected Audit Recommendations ..............43




                                                                                                                       3
This page is intentionally left blank




                                        4
Summary of   This report summarizes the results of fieldwork in the Bureau for Global Health's
Results      Office of HIV/AIDS (GH/OHA) and eight Office of Inspector General (OIG)
             audits conducted at selected operating units by Regional Inspector General offices
             and Washington, D.C. (See Appendix IV for a list of these audit reports.) The
             audits were designed to determine: 1) whether selected USAID operating units
             monitored the performance of their HIV/AIDS programs in accordance with
             Automated Directives System (ADS) guidance; 2) whether selected USAID
             operating units achieved intended results from their HIV/AIDS programs; and 3)
             the status of selected USAID operating units' efforts to meet anticipated additional
             HIV/AIDS reporting requirements. (See page 7.)

             According to the individual audit reports, five of the eight operating units
             generally monitored performance in accordance with ADS requirements and other
             relevant guidance, while three did not. However, all eight operating units had
             areas for improvement that prompted audit recommendations. Those areas for
             improvement fell into two main categories: 1) improving performance monitoring
             plans and 2) planning, conducting, and documenting data quality assessments.
             (See pages 8-14.)

             In addition to unit-specific corrective actions, there are also corrective
             actions that GH/OHA could take to improve performance monitoring for
             all USAID HIV/AIDS programs. In this report we recommend that OHA:

                •   provide training on performance monitoring development and
                    requirements to appropriate operating units (see page 11) and

                •   provide training on performing and documenting data quality
                    assessments to appropriate operating units (see page 14).

             The eight audits also found that, for the 23 performance indicators tested,
             the operating units achieved intended results for 10 indicators, but did not
             achieve intended results for 5 indicators. As explained in the report, for
             the remaining 8 indicators, we could not assess whether the operating units
             met the intended results. (See pages 14-18.)

             In fiscal year 2001, with increased resources from Congress, USAID developed
             an “Expanded Response” to the HIV/AIDS pandemic. Under this “Expanded
             Response,” operating units were required to work closely with USAID offices in
             Washington to establish a comprehensive program monitoring and reporting
             system. In order to implement this “Expanded Response” more efficiently, a new
             HIV/AIDS operational plan was approved in April 2002. Among other things, the
             new operational plan:



                                                                                        5
                 •   provides GH with approval authority over the technical content of
                     operating unit HIV/AIDS strategies;

                 •   requires operating units to update their strategic plans through joint
                     programming with other offices and bureaus to ensure they meet standards
                     and have measurable impacts;

                 •   charges operating units with carrying out improved monitoring and
                     evaluation as specified in the “Expanded Response;” and

                 •   provides additional operating expense funds for staff, technical support,
                     and planning and training workshops to implement the strategy.

             We believe that, while these were positive steps in strengthening USAID’s
             HIV/AIDS programs and monitoring and reporting methods, they did not
             specifically address the weaknesses found during the audits with respect to
             operating unit performance monitoring plans and data quality assessments. (See
             pages 18-22.) Accordingly, we made two recommendations to address these
             weaknesses. GH/OHA acknowledged the ongoing need for training and provided
             training and technical assistance to priority HIV/AIDS missions to meet the audit
             recommendations. Based on USAID’s actions taken, we consider that final action
             has been taken on both report recommendations upon report issuance. (See pages
             22-23.)




Background   According to the World Health Organization, approximately 40 million
             people are infected with HIV/AIDS (Human Immunodeficiency
             Virus/Acquired Immune Deficiency Syndrome) and the number is
             growing. In 2001, some 3 million people died, while another 5 million
             were newly infected. Both infections and deaths are almost equally
             distributed between men and women. Half of all new infections–over
             6,000 daily–are occurring among young people (15–24 years old).

             Funding in support of USAID’s efforts to address HIV/AIDS has
             increased dramatically from $139 million in fiscal year 1999 to more
             than $500 million in fiscal year 2002.

             With the funding increase, there has been much interest in monitoring the
             impact of USAID assistance on the HIV/AIDS epidemic. In its report on
             USAID's fight against HIV/AIDS in Africa,1 the U.S. General Accounting
             Office (GAO) noted that gaps in data gathering and reporting, the
             inconsistent use of indicators, and the lack of a routine system for
             1
              U.S. Agency for International Development Fights AIDS in Africa, but Better Data
             Needed to Measure Impact (GAO-01-449, March 2001).


                                                                                                 6
                     reporting program results limited USAID’s ability to measure its overall
                     impact on reducing HIV transmissions. The GAO recommended that
                     USAID select standard indicators to measure performance, gather
                     performance data on a regular basis, and report this data to a central unit
                     for analysis.

                     USAID created the Office of HIV/AIDS (OHA) within its Bureau for
                     Global Health and in April 2002, USAID’s Administrator approved a new
                     HIV/AIDS operational plan entitled “Stepping up the War against AIDS.”
                     This plan focused efforts on AIDS even further by launching a plan to
                     accelerate the implementation of the expanded response strategy and
                     maximize its impact.



Audit Objectives Based on its audit plan, the Office of Inspector General conducted a series
                     of audits that reviewed the status of selected operating units’ HIV/AIDS
                     programs. This audit report summarizes the results of fieldwork in
                     GH/OHA and a series of audits performed by the Office of Inspector
                     General in eight locations.2

                     The audit objectives and the scope and methodology for the audits were
                     developed in coordination with USAID’s HIV/AIDS office. The audit
                     objectives were:

                             Did selected USAID operating units monitor the
                             performance of their HIV/AIDS programs in accordance
                             with Automated Directives System (ADS) guidance?

                             Did selected USAID operating units achieve intended
                             results from their HIV/AIDS programs?

                             What is the status of selected USAID operating units' efforts to
                             meet anticipated HIV/AIDS reporting requirements?

                     Appendix I contains a discussion of the audit scope and methodology.




                     2
                       The eight locations included Zambia, India, Senegal, Rwanda, Uganda, Nigeria,
                     Cambodia, and South Africa.


                                                                                                       7
Audit Findings   Did selected USAID operating units monitor the performance of their
                 HIV/AIDS programs in accordance with Automated Directives
                 System (ADS) guidance?

                 According to the individual audit reports, five of the eight USAID operating units
                 selected generally monitored the performance of their HIV/AIDS programs in
                 accordance with USAID’s Automated Directives System (ADS) guidance. The
                 remaining three operating units either did not monitor or did not fully monitor
                 their programs in accordance with ADS policy (see summary of USAID selected
                 operating units' performance monitoring controls at Appendix V, page 39).

                 ADS 201.3.4.13 requires each operating unit to establish a performance
                 monitoring system, including preparing a performance monitoring plan. This plan
                 should include performance indicators with performance baselines and targets and
                 should describe the data sources and methods of data collection. ADS 203.3.6.5
                 and ADS 203.3.6.6 require operating units to periodically assess the quality of
                 data reported.

                 For the five operating units that generally met ADS requirements, in most cases
                 their indicators were precisely defined, data sources were identified, data
                 collection schedules were specified, appropriate assignments of responsibility to
                 personnel had been made, and baselines were established.

                 However, all eight of the operating units needed some improvement in their
                 performance monitoring plans (PMPs) to enable consistent collection and
                 reporting of credible data. For example, four of the operating units did not
                 precisely define all of their indicators, three did not correctly identify data
                 sources, and three did not identify data collection responsibilities. In addition, six
                 of the eight operating units did not perform and/or document data quality
                 assessments for all of the HIV/AIDS indicators reviewed. These areas are
                 discussed below.

                 Performance Monitoring Plans
                 Need to be Updated and Improved

                 USAID guidance requires operating units' PMPs to include: (1) precise indicator
                 definition, (2) data source identification, (3) description of the data collection
                 methods, (4) assignment of responsibilities, and (5) disclosure of data limitations.
                 As noted above, all eight operating units needed some improvement in their
                 respective PMPs. The principal reasons for these shortcomings were that
                 operating unit personnel did not know or were not fully aware of the monitoring
                 requirements, limited staff, HIV/AIDS programs were fairly new or evolving, and


                                                                                              8
operating units were not reviewing or updating their PMPs. Without plans that
fully comply with USAID guidance, the operating units might not collect and
report consistent, credible and useful performance information on the progress of
their HIV/AIDS activities.

The PMP is a performance planning and monitoring tool that supports “results
focused program management.” ADS guidance lists the performance monitoring
controls to be included in the PMP and by which USAID program managers
should monitor the performance of programs. Specifically, ADS 201.3.4.13(a)
indicates that a PMP must

(1) provide a detailed description of the performance indicators to be tracked;

(2) specify the source of the data;

(3) specify the data collection method;

(4) establish a schedule for data collection;

(5) assign responsibility for data collection to a specific office, team, or
    individual;

(6) disclose known data limitations, discuss the significance of the limitations for
    judging the extent to which goals have been achieved, and describe completed
    or planned actions to address these limitations; and

(7) describe the data quality assessment procedures that will be used to verify and
    validate the measured values of actual performance.

In addition, USAID guidance requires operating units to review and update their
respective performance monitoring plans annually.

However, these policies were not being fully implemented. The following table
describes the percentage of indicators tested during the series of audits that met
and did not meet certain requirements of a PMP (also see Appendix V).




                                                                               9
                  Table Showing Percentage of Indicators Tested
                    That Met Certain Requirements of a PMP
                                                 Data
 Operating Unit      Indicators     Data       Collection                         Data
 and Number of        Precisely    Sources     Methods      Responsibilities   Limitations
   Indicators         Defined     Identified   Described       Assigned         Disclosed
   Tested [X]

 Zambia [3]           100%         100%         100%            100%             100%
 India [2]             50%         100%         100%            100%             100%
 Senegal [3]          100%          0%          100%            100%              0%
 Rwanda [3]            0%          100%          0%              0%               0%
 Uganda [4]           100%         100%         100%            100%             100%
 Nigeria [3]          100%          0%           0%              0%               0%
 Cambodia [3]          0%           67%          67%             0%              100%
 South Africa          67%         100%         100%            100%              0%
 [3]

 Percentage of       33% No       29% No       29% No          38% No           50% No
 indicators
 tested
 meeting the
 requirements        67% Yes      71% Yes      71% Yes        62% Yes          50% Yes



According to operating unit officials, the principal causes for the shortcomings
were:

(1) the staff members responsible for implementing the plans were uninformed or
    were not fully aware of all monitoring requirements;

(2) limited staff;

(3) evolving plans and priorities; and

(4) lack of review and updating of performance monitoring plans.

Without performance monitoring plans that comply fully with USAID policy,
operating units might be unable to collect and report credible data and, therefore,
USAID will be unable to accurately determine if its HIV/AIDS activities are
making progress as planned. The PMP serves as the primary tool to support
results-focused program management, which requires access to useful, timely, and
reliable information for decision-making. If elements from the PMP–such as


                                                                                   10
precise indicator descriptions, data sources, data collection methodology,
assignment of responsibility, and data limitations–are incomplete or not specified
for each indicator, the operating unit reduces its assurance that (1) data will be
consistent from year to year, (2) users are aware of data limitations, and (3)
reliable information will be reported. The completion and implementation of a
PMP with its proper elements will assist the operating units in managing for
results and meeting expanded reporting requirements.

The OIG made specific recommendations to each of the eight overseas operating
units audited relating to their performance monitoring plans. For example, the
OIG recommended that operating units take such actions as establish and follow a
schedule in which the PMP is reviewed and updated, establish targets for all
indicators used to monitor the performance of HIV/AIDS programs, provide
training on performance monitoring to the staff responsible for implementing the
plan, monitor program partner’s data collection methods, and disclose known data
limitations.

Although the selected operating units will benefit from the individualized
recommendations, the extent of non-compliance demonstrates that USAID
operating units as a whole needed improvement in performance monitoring and
reporting. Therefore, to ensure that all responsible staff are fully informed of
ADS requirements for performance monitoring plans and that HIV/AIDS
performance monitoring plans are complete and updated regularly, we made the
following recommendation in our draft report:

       Recommendation No. 1: We recommend that the Bureau for
       Global Health, Office of HIV/AIDS provide training on
       performance monitoring development and requirements to
       operating units that have HIV/AIDS programs.

Based on information provided by GH/OHA in comments to the draft report (see
Appendix II), we believe that management has taken sufficient action since the
dates of our audits to address this recommendation.

Data Quality Assessments Should
Be Performed and Documented

Contrary to USAID guidance, six of the eight overseas operating units audited
neither described Data Quality Assessment (DQA) procedures in their
performance monitoring plans nor performed required DQAs for all of the
indicators tested. These conditions occurred in some cases because the operating
units did not have systems in place to check the accuracy of results reported
and/or operating units personnel were not fully aware of the requirements.
Without such systems, data limitations might not be recognized and flawed data
might be reported and erroneous management decisions could be made based on
that flawed data.


                                                                         11
ADS 201.3.4.13 states that, at a minimum, PMPs must contain a description of the
DQA procedures that will be used to verify and validate the measured values of
actual performance. Furthermore, ADS 203.3.6.5 and ADS 203.3.6.6 require that
DQAs be performed when establishing indicators and at least every three years
thereafter for all indicators reported in USAID’s annual reports and for other data
included “in special reports to Congress or other oversight agencies, such as the
annual HIV/AIDS or micro-enterprise reports.” Such assessments are intended to
ensure that performance information will be sufficiently complete, accurate, and
consistent. The guidance further notes that, when conducting DQAs, operating
units must

   •   verify and validate performance information to ensure that data are of
       reasonable quality;

   •   review data collection, maintenance, and processing procedures to ensure
       that they are consistently applied and continue to be adequate; and

   •   retain documentation of the assessment in performance management files–
       a requirement that is in accord with general Federal requirements to
       document significant events and to retain such documentation for future
       examination.

The ADS further notes, “Meeting requirements for DQAs need not be excessively
onerous…” The ADS goes on to say that the requirement might be met by
activities such as

   •   reviewing partner reports;

   •   making site visits to spot check for reliability; or

   •   holding discussions with data source agencies on quality assurance
       procedures, if these discussions are sufficiently detailed, crosschecked and
       well documented.

In any case, the goal of a DQA is to ensure that the user of the data is aware of
data strengths and weakness and the extent to which data can be trusted when
making management decisions.

Moreover, the USAID Center for Development Information and Evaluation
(CDIE) issued guidance for assessing data quality in its TIPS #12, Guidelines for
Indicator and Data Quality, issued in 1998. That guidance states that it is
important to critically assess performance measurement systems and data sources
from time to time to make sure that indicators are measuring the results and that
data are being collected as originally intended.


                                                                          12
However, six of the eight operating units audited did not have DQA procedures
described in their performance monitoring plans for all of the performance
indicators selected for audit. Furthermore, required DQAs had not been
conducted for all of the indicators tested (or documentation could not be
provided).3 As illustrated in the table below, operating unit performance
monitoring plans did not contain descriptions of DQA procedures for 75 percent
of the indicators reviewed and DQAs were not conducted for 74 percent of the
performance indicators tested by the OIG.


               Table Showing Percentage of Indicators Tested
                  With/Without Data Quality Assessments
      Operating Unit and                 Data Quality      Data Quality
      Number of Indicators               Assessments       Assessments
         Tested [X]                       Described         Conducted
                                            In PMP

USAID/Zambia [3]                                             0%                    0%
USAID/India [2]                                            100%                  100%
USAID/Senegal [3]                                            0%                    0%
USAID/Rwanda [3]                                             0%                    0%
USAID/Uganda [4]                                           100%                  100%
USAID/Nigeria [3]4                                           0%                     0%
USAID/Cambodia [3]                                           0%                     0%
USAID/South Africa [3]                                       0%                     0%

Percentage of indicators that did not                      75%                    74%
Comply with the performance monitoring
Control

The operating units that did not follow the policy and guidance regarding DQAs
were non-compliant for a number of reasons:

(1) No system was in place to check the accuracy of the reported data–DQAs
    were not a part of operating units' PMPs;



3
  Similar findings were reported in Office of Inspector General report entitled, Audit of
Performance Monitoring for Indicators Appearing In Selected USAID Operating Units’ Results
Review and Resource Request Reports, issued September 27, 2001 (Audit Report No. 9-000-01-
005-P). This series of audits, which reviewed performance indicators across all operating unit
program sectors, found that six of the seven operating units audited had not performed required
DQAs.
4
  Because no data were reported for one indicator, only two indicators were tested to see
if DQAs were conducted.


                                                                                     13
(2) Some staff members were not fully aware or were uninformed of the
    requirements;

(3) Operating units relied on their grantees because operating unit staff felt that
    the methods and partners were well-established and reputable; and

(4) Operating units stated that they performed the required data quality
    assessments, but did not document the DQA activities or findings.

DQAs are a key element of USAID’s performance monitoring system. Without
such assessments the quality of data being collected and reported is simply
assumed and data limitations, if any, are not documented and recognized. As a
result, flawed data may be reported and erroneous management decisions could be
made based on that flawed data. Documenting such assessments helps ensure that
they are done and that the results are available to successive managers.

In addition, with increased funding for HIV/AIDS and with expanded reporting
requirements, we believe that it is even more urgent that operating units ensure
that the data collected for all key indicators used to manage their HIV/AIDS
programs be reliable. Therefore, we made the following recommendation in our
draft report:

       Recommendation No. 2: We recommend that the Bureau of
       Global Health, Office of HIV/AIDS provide training to the
       operating units that have HIV/AIDS programs on performing
       and documenting data quality assessments for HIV/AIDS
       indicators included in their Performance Monitoring Plans and
       special reports.

Based on information provided by GH/OHA in comments to the draft report (see
Appendix II), we consider that management has taken sufficient action since the
dates of our audits to address this recommendation.

Did selected USAID operating units achieve intended results from their
HIV/AIDS programs?

At the operating unit level, the eight audits found that for the 23 performance
indicators tested under this objective, the operating units achieved intended results
for 10 indicators but did not achieve intended results for 5 indicators. For the
remaining eight indicators, we could not assess whether performance indicators
met intended results. In many cases, operating units did not succeed for reasons
outside their control.

       Intended Results Achieved for Ten Indicators




                                                                           14
Operating units met or exceeded their intended results for ten of the indicators
reviewed. For example,

   •   USAID/Zambia achieved its targets for condom sales and condom use.
       Using market research techniques, the brand name Maximum was
       developed and condom sales grew from 4.7 million in 1993 to 8.6 million
       in 2000, surpassing the program’s FY 2000 target of 7.5 million condoms
       sold.

   •   The results of USAID/Zambia's fiscal year 2000 survey of condom use
       showed that actual condom use during last sexual act with a non-regular
       partner was 34 percent for females and 40 percent for males. These levels
       were well above the indicator target levels for condom use of 28 percent
       for females and 35 percent for males.

   •   In the state of Tamil Nadu, USAID/India was successful in achieving
       intended results of increased condom use among high-risk groups. The
       Mission reported that, in FY 2000, 60 percent of the target group used
       condoms in the most recent sexual encounter with a non-regular partner,
       thus exceeding its target of 57 percent.

   •   USAID/South Africa’s condom availability indicator measures the percent
       of the 677 Eastern Cape Province clinics that have condoms easily
       available. The operating unit had planned to achieve a level of 70 percent.
       USAID/South Africa reported that it exceeded this goal by reaching an 85
       percent level in the Province’s clinics.

Additional examples of indicators that met or exceeded their targets can be seen
in the eight individual audit reports identified in Appendix IV, page 37.

       Intended Results were not Achieved for Five Indicators

However, operating units did not meet their targets for five indicators. Of these
five, four did not meet their intended results due, in part, to circumstances beyond
the operating units’ control. For example,

   •   USAID/Zambia did not achieve its target for Sexually Transmitted
       Infections (STI) Diagnosis and Treatment primarily because of host
       government policies. Until 1998, the operating unit supported a program
       that trained approximately 100 health workers in STI care management.
       In 1998 a combination of host governmental policy restricting health care
       training programs and the failure of another donor to provide anticipated
       STI drugs made continuation of the training program impractical.




                                                                          15
   •   USAID/South Africa did not meet its intended results for its indicator,
       access to HIV testing, because of the host government’s weakness in
       procurement and distribution of HIV test kits.

   •   USAID/Uganda did not achieve its fiscal year 2000 targets for two of its
       indicators. Intended results were not achieved for its HIV testing and
       counseling indicator primarily because strategies to improve performance
       were not implemented due to lack of funding. The other indicator, HIV
       counseling, did not achieve its intended results in 2000 because of a
       reduction in food aid for clients of AIDS support organizations and a
       policy change. However, it exceeded its target in 1998 and missed targets
       by 1 percent and 3 percent in 1997 and 1999.

   •   The fifth indicator that did not achieve its intended result was designed to
       measure the increase in Sexually Transmitted Disease (STD) care-seeking
       behavior, with a goal of reaching 72 percent of STD-infected individuals
       who sought treatment in 2000. The reported result was 65 percent.
       Although per USAID/India's data, it did exceed its intended results in the
       prior three years.

   •   The progress of USAID’s HIV interventions was disappointing in another
       region of India. On September 15, 1999, the operating unit and the host
       government signed a bilateral agreement for USAID’s HIV/AIDS project.
       The agreement called for USAID to provide $41.5 million over seven
       years to combat the region’s growing HIV/AIDS epidemic. However,
       when the audit began in June 2001, the host government still had not
       satisfied all the conditions necessary for USAID to release the project
       funds.

       The Results for Some Indicators Could Not Be Assessed

During our review, we could not assess whether the operating units were
achieving their intended results for 8 of the 23 tested indicators because
performance data were not available due to civil turmoil in the host country,
performance targets had not been established, or performance target data were not
yet due.

ADS 201.3.4.10(b) states that strategic objective teams should identify
performance measures and formulate activities required to achieve those results
for which the operating unit is taking responsibility. Per the ADS, the next steps
include “developing a complete set of performance indicators, establishing related
baselines and targets, and developing a Performance Monitoring Plan."
Furthermore, ADS 201.3.4.13 indicates that baselines and targets should be
determined for each of the performance indicators in the PMP. USAID’s
Performance Monitoring and Evaluation Guidance, TIPS No. 8, explains further


                                                                         16
that operating units should establish a performance target for each performance
indicator it selects.

   •   An assessment of three indicators at USAID/Rwanda could not be done
       because of circumstances beyond that particular operating unit’s control.
       Prior to year 2000, reliable and pertinent data were not available from
       which the operating unit could choose baseline data that reflected indicator
       activities.

       Genocide and civil war had decimated the health infrastructure in Rwanda
       along with most of the relevant data. During that period, USAID focused
       its activity on emergency humanitarian assistance, instead of developing
       health and social services for HIV/AIDS. Until October 1999, the
       operating unit was exempt from most ADS requirements for monitoring
       and evaluation. Nevertheless, the operating unit was not relieved of all of
       its “evaluation and reporting” requirements. The PMP had not been
       updated in two years, even though the ADS applied to the operating unit
       during this time. Strategic Objective team members explained that the
       PMP might not have been updated due to staffing shortage.

   •   Results associated with three additional indicators, one at USAID/Nigeria
       and two at USAID/Cambodia, could not be assessed for achieving
       intended results because performance targets had not been set as required
       by USAID guidance. However, activities at these two missions appeared
       to be making progress towards the desired results.

       Officials at USAID/Nigeria stated that even though they did not establish
       a performance target for one of their HIV/AIDS indicators, they had
       collected data for the indicator in FY 2000 using a Behavioral
       Surveillance Survey (BSS) to serve as a baseline.

       USAID/Cambodia did not set targets for two of its indicators because it
       was not entirely aware of such requirements. In fact, mission officials
       were not certain whether they were required to report on the progress of
       the program because HIV/AIDS activities were organized under a special
       objective. This operating unit’s performance monitoring plan did not
       completely meet USAID policy requirements, partially because operating
       unit officials were not fully aware of those requirements and, to some
       extent, because of being short-staffed. According to operating unit
       officials, the Monitoring and Evaluation Advisor position had been vacant
       since early 2000. It should be noted that this position was filled in
       February of 2002.

   •   We did not make an assessment whether the Mission was meeting
       intended results for the remaining two indicators because target data were


                                                                        17
       not due until the end of 2001 and 2003. A self-assessment by
       USAID/Senegal showed that it was achieving its strategic objectives of
       increased and sustainable use of reproductive health services.

As articulated earlier in the report, annual reviews and updates of operating unit
PMP and data quality assessments are critical in recognizing areas for adjustment
and improvement. Periodic updates ensure the usefulness and relevance of a
PMP. ADS 203 states that a PMP should be the cornerstone of a strategic
objective team’s performance management system. An outdated (or incomplete)
PMP provides little assistance in the timely and consistent collection of
performance data. For those indicators that did not have the required performance
targets in place, we believe that a lack of full understanding of performance
monitoring requirements on the part of operating unit staff to be the cause. These
issues have been addressed individually to operating units in their audit reports
(see Appendix IV, page 37).

What is the status of selected USAID operating units' efforts to meet
anticipated HIV/AIDS reporting requirements?

The OIG reviewed the selected operating units to determine if they were prepared
to meet the new reporting requirements anticipated in USAID’s draft “Expanded
Response to the Global HIV/AIDS Pandemic, Monitoring and Evaluation
Guidance."

Only one of the eight operating units was unaware of the new HIV/AIDS
reporting requirements. The other seven operating units were in various stages of
implementing actions to meet the new requirements. Some had already taken
steps to meet the new reporting requirements while others were in the planning
stage.

       New USAID Monitoring and Reporting
       Requirements

Due to the significant increase in HIV/AIDS funding from 1999 to 2002, there has
been a great deal of interest in monitoring the results of USAID’s assistance in
this area. In March 2000, USAID's Bureau for Global Programs, Field Support
and Research developed a handbook of standard indicators that operating units
could use to measure the progress of their HIV/AIDS programs. In March 2001,
the U.S. General Accounting Office (GAO) issued its report on USAID’s fight
against AIDS in Africa, which reported the need for performance monitoring
systems. In its report, GAO recommended that USAID’s operating units adopt
standard indicators to measure program performance, gather performance data on
a regular basis, and report data to a central location for analysis.




                                                                        18
To improve the monitoring process for its HIV/AIDS program, USAID has
drafted "Monitoring and Evaluation Guidance" as part of USAID’s Expanded
Response to the Global HIV/AIDS Pandemic. This guidance establishes several
global targets USAID expects to achieve with its additional funding and requires
operating units to routinely monitor and evaluate their HIV/AIDS programs in a
definitive, systematic way and to report on their progress. The draft guidance
required “rapid scale-up countries” and "intensive-focus countries" to implement
this enhanced monitoring and reporting system (see Appendix III for a description
of "rapid-focus countries" and "intensive-focus countries"). The system would
collect and report information at three levels:

•   At the first level, operating units in rapid scale-up and intensive focus countries
    were required, by 2007, to develop a national sentinel surveillance system to
    report annually on HIV incidence rates so as to measure the overall effect on the
    pandemic of national HIV/AIDS prevention and mitigation programs. The
    standard indicator for this measurement, according to the draft guidance, would
    be HIV prevalence rates for 15-24 year olds.

•   The second level required missions in these countries to conduct standardized
    national sexual behavior surveys every 3-5 years, beginning in 2001. Standard
    indicators proposed in the draft guidance for this area are number of sexual
    partners and condom use with last non-regular partner.

•   At the third level, missions in these countries would be required to report
    annually, not only on trends at the national level−which may or may not
    directly reflect USAID-funded activities−but on progress toward
    implementing USAID's HIV/AIDS programs and increasing the proportion of
    the target population covered by these programs. The draft guidance lists
    seven standard indicators that operating units might use to measure progress
    in selected program areas.

       Operating units were at different stages in preparing to meet
       the new reporting requirements at the time of the audits

Only one of the operating units reviewed was unaware of the new HIV/AIDS
reporting requirements prior to the audits. Operating unit officials stated that they
had not received copies of the draft “Monitoring and Evaluation Guidance.”
Upon review of the guidance, the operating unit believed that some of the
requirements might not be applicable, given its complex geopolitical situation at
the time. The operating unit wanted to obtain further clarification from
Washington prior to being able to determine if it would be able to meet the
anticipated requirements.

The remaining seven operating units audited were at different stages in preparing
to meet the new reporting requirements. For instance, two of the operating units


                                                                            19
were reported to be well on their way to meeting the new reporting requirements,
others were in the midst of revising their strategic objectives, reviewing possible
new indicators, selecting data sources, and transitioning to meet the reporting
requirements. One operating unit had already provided additional training to its
management staff on the new monitoring and reporting requirements, begun
working with its partners to expand and improve HIV/AIDS surveillance systems,
and had plans to identify monitoring indicators for the new program elements.

         Current status of USAID operating units’ ability to meet the
         “Expanded Response” requirements

In fiscal year 2001, with increased resources from Congress, USAID developed
an “Expanded Response” to the HIV/AIDS pandemic. This strategy was designed
to enhance the ability of countries to prevent new HIV/AIDS infections and
provide services to those who are either infected or otherwise affected by the
epidemic, especially children orphaned by AIDS.

Under this “Expanded Response,” operating units would be required to work
closely with USAID offices in Washington to establish a comprehensive program
monitoring and reporting system. Washington would provide some funding and
technical assistance to support this improved data collection, analysis, and
reporting system, but participating operating units would also be required to
invest some of their budget in this reporting system.

As of January 2002, USAID had determined that the implementation for this
strategy was insufficient in several ways. In particular 1) there was insufficient
technical support for priority countries, 2) the basic countries5 suffered from
insufficient resources and support from their regional bureaus and Washington,
and 3) regional programs were operating inefficiently.

To combat these deficiencies and to improve support for HIV/AIDS programs, the
strategy was revised in several ways: such as,

    •    The number of intensive focus countries was increased from 17 to 23.

    •    In fiscal year 2002, the total budget for HIV/AIDS programs was
         increased to approximately $510 million, which would provide for
         increased staffing and address other problems.

    •    The basic country strategy was to be revised by creating and strengthening
         seven HIV/AIDS regional offices (One in Central Asia, one in West
         Africa, South Africa, Barbados, Guatemala, Thailand, and one other

5
  Basic countries are countries that are not identified as rapid scale-up and intensive
focus countries. In 2001, USAID had HIV/AIDS programs in 29 basic countries.


                                                                                          20
       location). This strategy enrichment was to include increasing staff to
       assist the basic countries determine where resources should go.

On April 23, 2002, USAID’s Administrator approved the Agency’s new
HIV/AIDS operational plan entitled "Stepping up the War against AIDS.” In
summary, the new HIV/AIDS operational plan will:

•   Increase high priority countries from 17 to 23 and increase funding levels,
    technical assistance and staff allocations for these countries.
    USAID/Washington will identify means to help ensure that HIV/AIDS
    funding is considered additive and not be affected by country and regional
    ceilings.

•   Maintain bilateral funding for those “basic” country programs that the
    regional bureaus, Bureau for Global Health (GH) and Bureau for Policy and
    Program Coordination (PPC) identify as critical.

•   Strengthen HIV/AIDS technical capacity of regional field offices to track the
    epidemic and implement cross-border or other strategic interventions and
    provide support to bilateral and non-presence programs as needed.

•   Require all operating units to update their strategic plans through joint
    programming with GH, PPC and regional bureaus to ensure that these plans
    meet Agency technical standards and have clearly identified and measurable
    impacts.

•   Provide GH with approval authority over the technical content of operating
    unit HIV/AIDS strategies and plans consistent with regional bureaus’ overall
    approval of country strategies in consultation with PPC and relevant pillar
    bureaus. GH, working with regional bureaus, will also develop incentives for
    innovative ideas or activities.

•   Mandate that GH and PPC sign-off on country HIV/AIDS budgets in
    consultation with regional bureaus.

•   Charge GH with monitoring the status of the pandemic and evaluating
    progress and impact of USAID programs at both the country and regional
    levels. Operating units will carry out improved monitoring and evaluation
    and submit data to GH, as outlined in a monitoring and evaluation cable.

•   Make every effort to provide key technical staff to the priority operating
    units, regional offices and the newly created Office of HIV/AIDS. This
    includes U.S. direct-hires, as well as Foreign Service nationals and other
    staff.



                                                                         21
                   •   Provide additional operating expense funds needed to place key staff, provide
                       technical support to the field, and jump-start the implementation of the
                       revised plan through regional “State of the Art” and planning workshops.

                   In conclusion, with respect to the new operational plan, USAID has devised a
                   major step to implement its new HIV/AIDS strategy. This plan provides for
                   additional resources and technical assistance to operating units to assist them in
                   implementing the HIV/AIDS strategy, and calls for improved program
                   monitoring, evaluation and reporting. However, because the new operational
                   plan did not specifically address the problems noted earlier in this report
                   regarding performance monitoring plans and data quality assessments (see pages
                   8 to 14), we included the recommendations at pages 11 and 14. The actions
                   management has taken and plans to take should help USAID operating units
                   improve their performance monitoring systems to collect and report consistent,
                   credible and useful performance information on the progress of their HIV/AIDS
                   programs.




Management     In response to our draft audit report, GH/OHA provided written comments
Comments and that are included in their entirety as Appendix II. GH/OHA stated that,
Our Evaluation since the audit fieldwork was carried out, the Agency has instituted a
                   comprehensive program encompassing guidance, training and technical
                   assistance to ensure that HIV/AIDS data are of the highest possible
                   quality. GH/OHA provided documentation on actions taken and believed
                   these actions would address the two recommendations in the report.

                   In short, GH/OHA noted that a number of important actions have been
                   carried out by:

                       •   GH/OHA – to improve planning, monitoring and reporting on
                           HIV/AIDS performance as well as to support and strengthen
                           HIV/AIDS strategies in country;
                       •   PPC – to strengthen the capacity of operating units to meet
                           USAID’s requirements for performance management; and
                       •   Concerned missions – to develop new country strategies, align and
                           update performance management plans (PMPs –formerly
                           performance monitoring plans) and establish baseline and
                           performance targets with the requisite documentation and quality
                           assurance systems.

                   For example, in 2002 and early 2003, the Global Health Bureau conducted
                   training on performance management, with emphasis on data quality
                   assessment and on strategic planning for Bureau staff who provide


                                                                                            22
technical assistance to mission HIV/AIDS programs. Moreover, since the
audit fieldwork, GH and PPC have provided priority HIV/AIDS missions
with extensive training and technical assistance to meet the audit
recommendations.

Based on information provided by GH/OHA, we consider that management has
taken sufficient action since the dates of our audits to address the report
recommendations, and thus, we consider that final action has been taken on both
report recommendations.




                                                                       23
This page is intentionally left blank




                                        24
                                                                                Appendix I


Scope and     Scope
Methodology
              These audits of selected operating units’ controls over performance
              monitoring were conducted in accordance with generally accepted
              government auditing standards. The purpose of the audits was to
              determine (1) whether the selected USAID operating units were
              monitoring the performance of their HIV/AIDS programs in accordance
              with the Automated Directives System guidance; (2) whether the selected
              USAID operating units were achieving intended results from their
              HIV/AIDS programs; and (3) the status of each operating unit's efforts to
              meet the anticipated new reporting requirements. The Office of Inspector
              General in Washington performed additional audit work to determine the
              current status of the Bureau of Global Health’s efforts to ensure that each
              operating unit meets the new reporting requirements.

              The audits covered 24 indicators in the selected operating units’ performance
              monitoring plans under Audit Objective No. 1 and 23 indicators under Audit
              Objective No. 2. The indicators were selected through consultation with
              HIV/AIDS technical advisers, mission officials, and by judgmental methods
              to provide good representations and cover major aspects of each mission's
              HIV/AIDS activities. Concerning the second objective, a determination as to
              whether intended results had been achieved was based on the fiscal year
              2000 results of the indicators selected from the missions’ PMPs. In
              evaluating for intended results, we recognized that, in many cases, other
              entities–including host countries–also participated in achieving these results.
              Because the third objective is a descriptive objective, the results were based
              on the facts given and statements provided at the time of the audits. See the
              individual reports for discussions of audit risk and materiality thresholds.

              The auditors’ review of mission management controls focused on each
              operating unit’s performance monitoring plan and how well the Missions
              complied with USAID, Office of Management and Budget (OMB), and
              General Accounting Office (GAO) policies and guidance. Specifically,
              assessments were made of each Mission’s internal controls for monitoring
              performance indicators, reporting data for baselines, and determining
              whether quality data were collected, maintained, and processed according to
              ADS guidance.

              The fieldwork for the audits was conducted in:

                 •    Zambia – Lusaka and Livingston, from March 26 through April 18,
                      2001;


                                                                                          25
   •   India – New Delhi, the state of Tamil Nadu, and USAID/ India, from
       June 11 through September 14, 2001;

   •   Senegal – Dakar, Louga, and Mbour, from August 9 through
       September 18, 2001;

   •   Rwanda – Kigali, Nyarusange, Kabgayi, and Gitarama, between
       September 27 and October 25, 2001;

   •   Uganda – Kampala, between October 10 and November 7, 2001;

   •   Nigeria – Accra, Abuja, and Lagos, from October 9 through
       November 2, 2001;

   •   Cambodia – Phnom Penh, between November 4, 2001 and March 1,
       2002; and

   •   South Africa – East London and Port Elizabeth, from January 14 to
       April 11, 2002.


Methodology

To accomplish the first audit objective, a review was made of each
Mission’s performance monitoring plan, and it was compared to the
requirements set forth in USAID’s Automated Directives System. A
further review of each PMP was conducted and 24 indicators were
judgmentally selected to determine if data sources were specified, data
quality assessments and procedures were completed, baselines were
established, and if data agreed to source documents. Information was also
obtained as to what methods were being used to monitor HIV/AIDS
programs.

To answer the second objective, analysis was conducted of planned and
actual performance results data for the 23 indicators presented in the
Missions’ PMPs and chosen for testing. Analysis and comparisons were
done to data submitted in mission Results Review and Resource Request
(R4) reports, source documents, and behavioral survey data.

For objective three, auditors reviewed USAID’s “Handbook of Indicators
for HIV/AIDS/STI Programs,” USAID’s “Expanded Response to the
Global HIV/AIDS Pandemic” (a draft dated February 2001), and the status
of each mission’s implementation of this guidance. Additionally, the



                                                                       26
auditors reviewed various documents from the Bureau of Global Health
and obtained statements from Bureau officials.




                                                                       27
This page is intentionally left blank




                                        28
                                                            Appendix II


Management
Comments




U.S. AGENCY FOR
  INTERNATIONAL
 DEVELOPMENT



MEMORANDUM

TO:               IG/A/PA, Dianne L. Rawl

FROM:             GH/OHA, Constance A. Carrino

SUBJECT:   Draft Capping Report for Audits of Selected USAID Operating
Units’ Monitoring of the Performance of Their HIV/AIDS Programs

Thank you for providing the opportunity to comment on the draft audit
report, which we read with interest. We certainly share your
commitment to the use of sound data for performance management and
reporting, and, since the audit fieldwork was carried out in 2001 and
early 2002, we have instituted a comprehensive program encompassing
guidance, training and technical assistance to ensure that HIV/AIDS
data are of the highest possible quality.      Since this program is
already well underway, we are able to provide information and
documentation below which, we believe, will permit you to determine
that the audit recommendations can be closed.

We would like to note that, while your recommendations focus on the
need for the Bureau for Global Health, Office of HIV/AIDS (GH/OHA) to
provide training to operating units with HIV/AIDS programs, we work in
concert with the Bureau for Policy and Program Coordination (PPC),
which provides complementary training and technical assistance.     We
are equal partners in ensuring that missions have the needed guidance
as well as the technical and programmatic skills in performance
management and data quality assessment, in line with the audit
recommendations.

In short, since the audit fieldwork was carried out, a number of
important actions have been carried out by:


                                                                    29
•   GH/OHA – to improve planning, monitoring and reporting on
    HIV/AIDS performance as well as to support and strengthen
    HIV/AIDS strategies in country;
•   PPC – to strengthen the capacity of operating units to meet the
    Agency’s requirements for performance management, and, largely
    in consequence;
•   Concerned missions – to develop new country strategies, align
    and update performance management plans (PMPs – formerly
    performance monitoring plans) and establish baseline and
    performance targets with the requisite documentation and quality
    assurance systems.

PPC has developed materials and training opportunities to enable
operating units to manage performance in accordance with the
Automated Directives Systems (ADS), as revised in September 2000.
Specifically, PPC developed two courses, the Performance Management
(PM) workshop and the Planning, Achieving and Learning (PAL)
workshop, which both address performance management and data quality
assessment in depth. More than 1200 USAID staff have benefited from
these trainings since 2001.     The ADS was revised in 2002-03 to
provide clearer guidance on indicator selection and data quality
analysis.

GH/OHA has worked closely with PPC to strengthen strategic planning,
performance   management  and   reporting  guidance,  training   and
technical assistance for HIV/AIDS programs. In 2002 and early 2003,
the Global Health Bureau conducted trainings on performance
management, with emphasis on data quality assessment and on
strategic planning for Bureau staff who provide technical assistance
to mission HIV/AIDS programs. OHA has provided missions worldwide
with guidance for HIV/AIDS programs on the new monitoring and
reporting system requirements as well as on strategic planning.
Based on OHA input, PPC has incorporated such guidance into the
latest draft of the ADS (January 2003). (Please see Tabs 1-4).

The guidance on monitoring and reporting (Tab 1) establishes new
requirements for HIV/AIDS reporting and summarizes the standard
indicators to be used in new technical areas, such as preventing
mother-to-child HIV transmission.       The guidance on strategic
planning (Tab 2) requires missions to discuss the strategy’s planned
results, including the nature and magnitude of the expected change
as well as indicators, targets, coverage and compliance with the new
Agency HIV/AIDS reporting requirements.




                                                                  30
    Since the audit fieldwork, in 2001-2002, GH and PPC have provided
    priority HIV/AIDS missions1 with extensive training and technical
    assistance to meet the audit recommendations.      Tab 5 documents
    specific dates for each priority mission, including all the audited
    missions.   (Tab 5 also includes regional training, which HIV/AIDS
    priority missions participated in as well as USAID/Washington
    training both for mission staff and for USAID/W staff who provide
    assistance to priority missions.)

    Further details on the efforts of GH           and   PPC   to   strengthen
    performance management are provided below.

    The Bureau of Global Health:

      Holds periodic ‘State of the Art’ (SOTA) regional workshops for
      all USAID PHN staff. In 2002, SOTA workshops were held for the
      Africa, the Asia and Near East, and the Europe and Eurasia
      regions. A SOTA workshop for all the Latin America and Caribbean
      missions will take place in March 2003. These SOTA workshops all
      include dedicated training sessions conducted by OHA on HIV/AIDS
      requirements for both monitoring and reporting as well as for
      strategic planning. OHA also provided such training in a “mini”
      SOTA for the Middle America (Central America plus Mexico)
      missions in November 2002.
      Held recent (January 2003) training on HIV/AIDS performance
      management requirements with emphasis on data quality assessment
      for all USAID/Washington staff.

    The Office of HIV/AIDS:

      Held week-long training on monitoring, reporting and performance
      management, including data quality assessment for all USAID/W
      providers of HIV/AIDS technical assistance in June 2002.     PPC
      trainers participated as well to ensure that training was in
      accordance with ADS guidelines.
      Provides extensive direct (see Tab 5) and telephonic/virtual
      technical assistance and support to HIV/AIDS programs worldwide.
      Such assistance is a top OHA priority.
      Developed (in collaboration with PPC) the new Agency HIV/AIDS
      operational plan, “Stepping Up the War against AIDS”, which,
      inter alia
         requires all missions to update their strategic plans to
         ensure that these meet Agency technical standards and have
         clearly identified and measurable impacts;


1
 Brazil, Cambodia, Dominican Republic, Ethiopia, Ghana, Haiti, Honduras,
India, Indonesia, Kenya, Malawi, Mozambique, Nepal, Nigeria, Russia, Rwanda,
Senegal, South Africa, Tanzania, Uganda, Ukraine, Zambia, Zimbabwe.



                                                                               31
     requires missions to carry out improved M&E and report to GH;
     and
     charges GH with monitoring and evaluating the progress and
     impact of the Agency’s HIV/AIDS programs.
  The Administrator approved this plan in April 2002 (Tab 6).
  Developed and transmitted “Guidance on the New Monitoring &
  Reporting System Requirements for HIV/AIDS Programs” (Tab 1) to
  all field missions (September 2002). This guidance establishes
  an improved, comprehensive system for routinely monitoring USAID
  HIV/AIDS program worldwide, managing resources and periodically
  reporting on the Agency’s progress toward achieving its stated
  results.
  Completed the draft of new Agency handbook of HIV/AIDS indicators
  and data quality management (in December 2002). This handbook,
  which represents more than a year of work by expert committees,
  provides standard definitions for indicators to track progress in
  the newer HIV/AIDS program areas such as the preventing mother-
  to-child transmission, and care, support and treatment. The
  handbook will be printed and distributed to the field early in
  2003.
  Will hold a refresher workshop on performance management,
  monitoring and data quality for all USAID/W staff that provide
  HIV/AIDS technical assistance to missions by the end of March
  2003.
  Worked with United Nations agencies, bilateral donors and the
  U.S. Centers for Disease Control and Prevention to standardize
  HIV/AIDS indicators worldwide. Mechanisms are in place to add
  new indicators and to revise and update indicators as needed.
  These efforts foster simplified, standardized and strengthened
  country-level surveillance, data, targets, monitoring and
  reporting.

The Bureau for Policy and Program Coordination:

  Developed two courses, the Performance Management (PM) workshop
  and the Planning, Achieving and Learning (PAL) workshop, which
  both address performance management and data quality assessment
  in depth. More than 1200 USAID staff have benefited from these
  workshops since 2001.
  Provides continuous guidance to OHA, USAID/W and field missions
  on performance management, including extensive training
  opportunities and technical assistance both directly and through
  the Integrated Managing for Results contract (Tab 5).
  Revised and updated the ADS 200 series in 2003 to make
  requirements for data quality assessments clearer and more
  specific.
  To standardize HIV/AIDS indicators Agency-wide, incorporated into
  the latest ADS draft (January 2003) the “USAID Handbook of
  Indicators for HIV/AIDS/STI Programs” and the “USAID Expanded
  Response Core Indicators for Monitoring and Reporting on HIV/AIDS


                                                                 32
     Programs” as mandatory references for all missions implementing
     HIV/AIDS programs (Tab 3).
     Is extending the Integrated Managing for Results contract to
     ensure that the technical assistance and training resources
     available through that contract will continue to be available
     through the end of FY 2004.

While the planned training and technical assistance outlined in Tab 5
run through 2003, OHA and PPC have established systems that will
continue to provide the technical assistance and training that
missions will require to ensure high quality data for performance
management and reporting over the longer term.

Given the substantial training and technical assistance that has been
provided since the fieldwork for the audits, which directly respond to
the two audit recommendations, we respectfully request that the IG
close the two recommendations at the same time that the report is
issued.

Attachments (Note – These Attachments are not included in the audit
report):

          Tab 1: “Guidance on the New Monitoring & Reporting System
          Requirements for HIV/AIDS Programs”
          Tab 2: “A Collaborative Approach to Reviewing HIV/AIDS
          Strategies” (HIV/AIDS Strategic Planning Guidance)
          Tab 3: ADS 203 excerpt, Revised draft on Quality
          Performance Indicators for PMPs: “HIV/AIDS Indicators”
          Tab 4: ADS 201 excerpt, Revised draft on “HIV/AIDS
          Strategies and Strategic Planning”
          Tab 5: GH & PPC Monitoring & Evaluation and Strategic
          Planning Technical Assistance and Training, Completed or
          Planned in 2002-03
          Tab 6: Action Memorandum approving the Agency’s revised
          HIV/AIDS plan with the new USAID HIV/AIDS Operational Plan
          (April 2002)




                                                                       33
This page is intentionally left blank




                                        34
                                                                                   Appendix III


Rapid Scale-Up • Rapid Scale-Up Countries are defined as countries that will receive a
and Intensive    significant increase in resources to achieve measurable impact within one-
Focus Countries  to-two years. This will result in an extremely rapid scaling up of
                         prevention programs and enhancement-of-care and support activities. As
                         of the time of the individual audits, Rapid Scale-Up countries included:

                         Cambodia        Kenya        Uganda        Zambia

                     •   Intensive Focus Countries are defined as countries where resources
                         will be increased and targeted to reduce prevalence rates (or keep
                         prevalence low in low prevalence countries), to reduce HIV
                         transmission unit from mother to infant and to increase support
                         services for people (including children) living with and affected by
                         AIDS within three-to-five years. As of the time of the individual
                         audits, Intensive Focus Countries included:

                         Ethiopia                           Nigeria                       Brazil
                         Ghana                              Rwanda                        India
                         Malawi                             Senegal                       Russia
                         Mozambique                         South Africa
                         Namibia                            Tanzania

                     •   Basic Countries are those countries which USAID will support host
                         country efforts to control the pandemic. USAID programs will
                         continue to provide assistance, focusing on targeted interventions for
                         populations who engage in high-risk behavior. In these countries,
                         there will be an increased emphasis on maintaining credible
                         surveillance systems in order to monitor HIV trends and allow timely
                         warning of impending concentrated epidemics of HIV. In addition,
                         USAID will assist country institutions to identify additional sources of
                         funding to expand programming.




                                                                                                35
This page is intentionally left blank




                                        36
                                                                   Appendix IV


Reports     Report No. 9-611-01-004-P, “Audit of USAID/Zambia’s Monitoring of
Issued on   the Performance of Its HIV/AIDS Program,” September 17, 2001
Selected
            Report No. 5-386-02-001-P, “Audit of USAID/India’s Monitoring of the
Operating   Performance of Its HIV/AIDS Program,” December 14, 2001
Units
            Report No. 7-685-02-002-P, “Audit of USAID/Senegal’s Monitoring of
            the Performance of Its HIV/AIDS Program,” March 8, 2002

            Report No. 4-696-02-003-P, “Audit of USAID/Rwanda’s Monitoring of
            the Performance of Its HIV/AIDS Program,” March 11, 2002

            Report No. 4-617-02-004-P, “Audit of USAID/Uganda’s Monitoring of
            the Performance of Its HIV/AIDS Program,” March 12, 2002

            Report No. 5-442-02-002-P, “Audit of USAID/Cambodia’s Monitoring of
            the Performance of Its HIV/AIDS Program,” June 21, 2002

            Report No. 4-674-02-006-P, “Audit of USAID/South Africa’s Monitoring
            of the Performance of Its HIV/AIDS Program,” June 28, 2002

            Report No. 7-620-02-004-P, “Audit of USAID/Nigeria’s Monitoring of
            the Performance of Its HIV/AIDS Program,” July 23, 2002




                                                                             37
This page is intentionally left blank




                                        38
                                                                                                                                                      Appendix V
    SUMMARY OF USAID SELECTED OPERATING UNIT’S PERFORMANCE MONITORING CONTROLS

                                                    Performance Monitoring Plan (PMP)
 Selected Operating
                           1.           2.           3.           4.            5.              6.            7.           8.           9.          10.         11.
Unit and Number of
                        Indicator     Data         Data         Data       Responsibility      Data        Quality        Data       Baseline      Data    Other Means
Indicators Tested [x]
                        Precisely    Sources     Collection   Collection     Assigned       Limitations   Assessment    Quality     Established   Agrees   of Monitoring
                         Defined    Identified    Method      Schedule                      Disclosed*    Procedures   Assessment                   To
                                                 Described    Specified                                   Described*    Done**                    Source

USAID/Zambia        1     Yes         Yes          Yes          Yes            Yes             Yes           No           No           Yes         Yes         Yes
     [3]
                    2     Yes         Yes          Yes          Yes            Yes             Yes           No                        Yes         Yes         Yes
                                                                                                                          No¹

                    3     Yes         Yes          Yes          Yes            Yes             Yes           No                        Yes         Yes         Yes
                                                                                                                          No¹

 USAID/India        1     Yes         Yes          Yes          Yes            Yes                           Yes          Yes          Yes         Yes         Yes
                                                                                               Yes²
      [2]
                    2     No          Yes          Yes          Yes            Yes                           Yes          Yes          Yes         Yes         Yes
                                                                                               Yes²


USAID/Senegal       1     Yes          No          Yes          Yes            Yes             No            No           No           Yes         Yes         Yes
      [3]
                    2     Yes          No          Yes                         Yes             N/A           No           No           Yes         Yes         Yes
                                                                Yes³

                    3     Yes          No          Yes          Yes            Yes             No            No           No           Yes         Yes         Yes


USAID/Rwanda        1     No          Yes           No          Yes             No             No            No           No                4      No          Yes
                                                                                                                                       No
      [3]

                    2     No          Yes           No          Yes             No             No            No           No           Yes         Yes         Yes


                    3     No          Yes           No          Yes             No             No            No           No                4      Yes         Yes
                                                                                                                                       No




                                                                                                                                                                 39
     SUMMARY OF USAID SELECTED OPERATING UNITS' PERFORMANCE MONITORING CONTROLS (CONTINUED)

                                                       Performance Monitoring Plan (PMP)
 Selected Operating Unit
                              1.           2.           3.           4.            5.              6.            7.           8.           9.           10.               11.
and Number of Indicators
                           Indicator     Data         Data         Data       Responsibility      Data        Quality        Data       Baseline       Data          Other Means
        Tested [x]
                           Precisely    Sources     Collection   Collection     Assigned       Limitations   Assessment    Quality     Established    Agrees         of Monitoring
                            Defined    Identified    Method      Schedule                      Disclosed*    Procedures   Assessment                    To
                                                    Described    Specified                                   Described*    Done**                     Source

  USAID/Uganda        1      Yes         Yes          Yes          Yes            Yes             Yes              5            6         Yes          N/A               Yes
                                                                                                               Yes          Yes
       [4]
                      2      Yes         Yes          Yes          Yes            Yes             Yes              5            6         Yes          No                Yes
                                                                                                               Yes          Yes


                      3      Yes         Yes          Yes          Yes            Yes             Yes              5            6         Yes          No                Yes
                                                                                                               Yes          Yes

                      4      Yes         Yes          Yes          Yes            Yes             Yes              5            6         Yes          No                Yes
                                                                                                               Yes          Yes


  USAID/Nigeria       1      Yes          No           No          Yes             No             No            No           No           Yes                   13       Yes
                                                                                                                                                     No/Yes
       [3]
                      2      Yes          No           No           No             No             No            No           No           Yes               8            Yes
                                                                                                                                                      N/A

                      3      Yes          No           No           No             No             No            No                7       No                7            Yes
                                                                                                                            N/A                       N/A


 USAID/Cambodia       1      No          Yes          Yes          Yes             No             Yes           No           No           Yes          Yes               Yes
       [3]
                      2      No          Yes          Yes          Yes             No             Yes           No           No           Yes          No                Yes


                      3           9           10       No          Yes             No             N/A           No           No              11            12            Yes
                             No          No                                                                                              Yes          No


USAID/South Africa    1      Yes         Yes          Yes          Yes            Yes             No            No           No           Yes          Yes               Yes
       [3]
                      2      No          Yes          Yes          Yes            Yes             No            No           No           Yes          Yes               Yes


                      3      Yes         Yes          Yes          Yes            Yes             No            No           No           Yes          Yes               Yes




                                                                                                                                                                        40
      SUMMARY OF USAID SELECTED OPERATING UNITS' PERFORMANCE MONITORING CONTROLS (CONTINUED)

                                                          Performance Monitoring Plan (PMP)
Selected Operating Unit
                                                                                                                                 8.           9.          10.          11.
    and Number of                1.           2.           3.           4.            5.              6.            7.
                                                                                                                                Data       Baseline      Data     Other Means
 Indicators Tested [x]        Indicator     Data         Data         Data       Responsibility      Data        Quality
                                                                                                                              Quality     Established   Agrees    of Monitoring
                              Precisely    Sources     Collection   Collection     Assigned       Limitations   Assessment
                                                                                                                             Assessment                   To
                               Defined    Identified    Method      Schedule                      Disclosed*    Procedures
                                                                                                                              Done**                    Source
                                                       Described    Specified                                   Described*

 Percentage of indicators     No 33%      No 29%       No 29%        No 8%         No 38%          No 50%        No 75%       No 74%       No 13%       No 29%
tested that did not (No) or
    did (Yes) meet the
                              Yes 67%     Yes 71%      Yes 71%      Yes 92%        Yes 62%        Yes 50%       Yes 25%      Yes 26%      Yes 87%       Yes 71%    Yes 100%
monitoring requirements.
   (24 indicators tested)

Note: Indicators marked as N/A were not included in the calculation for that column.

      *Note that these requirements were added to the ADS as of September 1, 2000, and must be implemented starting June 1, 2001.
      **Per the ADS, data quality assessments are required for indicators used to report progress in the annual Results Review and Resource Request
      (R4) report, and for data included in special reports to Congress or other oversight agencies, such as annual HIV/AIDS or micro-enterprise reports.
      1
        Operating unit staff indicated that they performed data quality assessments. However, they did not include the results of their actions in
      operating unit files.
      2
        Data limitations were disclosed in the operating unit PMP, but not in its R4 Report.
      3
        Frequency specified in the PMP; however, the operating unit did not adhere to the schedule.
      4
        Baseline data was not comparable to performance data.
      5
        The operating unit submitted updated Performance Indicator Reference Sheets dated October 2001, which included data quality assessment
      procedures.
      6
        The operating unit reviewed data quality assessments performed by its partners, the World Health Organization and the Centers for Disease
      Control.
      7
        Not applicable. No data reported for this indicator.
      8
        Not applicable. Data obtained from Behavioral Sentinel Surveillance survey was not reported externally. Per USAID/Nigeria, the data are used
      for internal program management decisions.
      9
        According to the operating unit’s PMP, the current definition of this indicator includes identifying the types of sexually transmitted diseases
      (STDs) assessed and treated as an element of the definition. The operating unit’s PMP and results report did not identify types of STDs.
      10
         According to the operating unit’s PMP, the baseline assessment for the indicator was planned in year 1999 based on an external evaluation of
      STD clinics supported by Family Health International (FHI). However, two FHI staff members collected baseline data by completing a STD
      survey study in April 2000.
      11
         According to the operating unit’s PMP, the operating unit planned to report the baseline measure in year 1999. Due to a delay in conducting the
      baseline assessment by FHI, the operating unit reported the baseline assessment only in year 2001.
      12
         According to FHI officials, the baseline assessment reported by the operating unit in year 2001 was erroneous and is being recalculated.
      13
         "No" for FY 1999 data; "Yes" for FY 2000 data.

                                                                                                                                                                      41
This page is intentionally left blank




                                        42
                                                                                                                               Appendix VI
    Summary of Selected Audit Recommendations

Recommendations                                Zambia     India    Senegal    Rwanda      Uganda       Nigeria       Cambodia          South
                                                                                                                                       Africa
Perform and document data quality
assessments                                       X                    X          *                       X              X
Modify the PMP to describe actions the
operating unit will take to assess data           X                    X          *                       X                               X
quality
Establish indicators that directly measure
progress towards goals, or scale down goals
                                                            X
to reflect intended results
Include appropriate performance measure(s)
in its PMP                                                  X                                                            X
Disclose known data limitations
                                                            X                     *                                                       *

Include a performance measure for
significant activities funded by other                      X
USAID units in the PMP
Establish a timeframe to begin specific
interventions                                               X
Establish/follow a schedule in which the
PMP is reviewed and updated                                                      X
Operating unit should monitor its partners'
methods of data collection                                                                   X
Provide training on performance monitoring
to the staff responsible for implementing the                                                             X
plan
Establish targets for all indicators used to
monitor the performance of its HIV/AIDS                                                                   X              X
programs.
Prepare a PMP for the operating unit’s new
strategic plan in accordance with ADS                                                                                    X
* Denotes that this issue was cited as a performance monitoring weakness in the audit report, but was not specifically addressed in the audit
recommendations.

                                                                                                                                          43
